APPENDIX A

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 1 of 10

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JAN 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
DAVID ENRIQUE MEZA,

No.

17-50432

D.C. No. 3:15-cr-03175-JM-1
MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Jeffrey T. Miller, District Judge, Presiding
Argued and Submitted December 9, 2019
Pasadena, California
Before: N.R. SMITH and WATFORD, Circuit Judges, and KORMAN,** District
Judge.
David Meza appeals his convictions for: (1) foreign domestic violence
resulting in death under 18 U.S.C. § 2261(a)(1), and (2) conspiracy to obstruct
justice under 18 U.S.C. § 1512(c)(2), (k). Specifically, Meza argues that: (1) he
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
*

The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.
**

(1 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 2 of 10

was not given adequate Miranda warnings, (2) he did not knowingly and
intelligently waive his Miranda rights, (3) the district court abused its discretion in
denying his request for a “heat of passion” defense instruction, and (4) the
indictment for the obstruction offense failed to properly allege the mens rea
element of conspiracy to obstruct justice. We have jurisdiction under 28 U.S.C.
§ 1291, and we affirm.
1.

The adequacy of a Miranda warning is reviewed de novo. See United States

v. Loucious, 847 F.3d 1146, 1148–49 (9th Cir. 2017). “The Supreme Court has not
required a ‘precise formulation of the warnings given’ to a suspect and has stressed
that a ‘talismanic incantation’ is not necessary to satisfy Miranda’s ‘strictures.’”
Id. at 1149 (quoting California v. Prysock, 453 U.S. 355, 359 (1981) (per curiam)).
“[T]he inquiry is simply whether the warnings reasonably convey to a suspect his
rights.” Id. (quoting Duckworth v. Eagan, 492 U.S. 195, 203 (1989)). In this case,
despite the detective’s prefatory statements and his casual manner of delivering the
Miranda advisal, the Miranda advisal provided to Meza was constitutionally
sufficient, because it “reasonably convey[ed]” to Meza his rights. Id.
2.

Whether a defendant knowingly and intelligently waives his Miranda rights

is a question of fact we review for clear error. See United States v. Price, 921 F.3d

2

(2 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 3 of 10

777, 791 (9th Cir. 2019). Furthermore, in determining whether a Miranda waiver
is knowing and intelligent, we consider the totality of the circumstances, including:
(i) the defendant's mental capacity; (ii) whether the defendant signed a
written waiver; (iii) whether the defendant was advised in his native
tongue or had a translator; (iv) whether the defendant appeared to
understand his rights; (v) whether the defendant's rights were
individually and repeatedly explained to him; and (vi) whether the
defendant had prior experience with the criminal justice system.
Id. at 792 (quoting United States v. Crews, 502 F.3d 1130, 1140 (9th Cir. 2007)).
In this case, while Meza did not sign a written waiver, there is no question as to
Meza’s mental capacity, there was no language barrier, Meza appeared to
understand his rights, Meza’s rights were individually explained to him, and Meza
had prior experience with the criminal justice system. For these reasons, the
district court’s determination that Meza knowingly and intelligently waived his
Miranda rights was not clearly erroneous.
3.

“Where the parties dispute whether the evidence supports a proposed

instruction, we review a district court’s rejection of the instruction for an abuse of
discretion.” United States v. Bello–Bahena, 411 F.3d 1083, 1089 (9th Cir. 2005).
Though the evidentiary standard is not high in this context, see id. at 1091, “there
still must be some evidence demonstrating the elements of the defense before an
instruction must be given,” United States v. Spentz, 653 F.3d 815, 818 (9th Cir.

3

(3 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 4 of 10

2011). Because there is no evidence in the record showing “provocation . . . such
as would arouse a reasonable and ordinary person to kill someone” that would
support a “heat of passion” instruction, United States v. Roston, 986 F.2d 1287,
1291 (9th Cir. 1993) (quoting United States v. Wagner, 834 F.2d 1474, 1487 (9th
Cir. 1987)), the district court did not abuse its discretion in denying Meza’s
proposed instruction.
4.

Meza’s argument that Count II of the indictment should have been dismissed

(because it did not expressly state that the subsequent proceeding must actually be
foreseen) is squarely foreclosed by Marinello v. United States, 138 S. Ct. 1101
(2018). In that case, the Supreme Court stated that the government must only show
“that the proceeding was pending at the time the defendant engaged in the
obstructive conduct or, at the least, was then reasonably foreseeable by the
defendant.” Id. at 1110. Because this is precisely what the superceding indictment
alleged, Meza’s argument fails.
AFFIRMED.

4

(4 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 5 of 10

(5 of 14)

FILED

United States v. David Enrique Meza, Case No. 17-50432

JAN 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KORMAN, District Judge, concurring:

I concur in full in the memorandum affirming the judgment of conviction.
Nevertheless, because of the extent to which the defendant presses his argument over
the prefatory statements and casual manner in which the Miranda warnings were
given, I write briefly to explain why any defect was harmless. The Supreme Court
has held that “[w]hen reviewing the erroneous admission of an involuntary
confession, the appellate court, as it does with the admission of other forms of
improperly admitted evidence, simply reviews the remainder of the evidence against
the defendant to determine whether the admission of the confession was harmless
beyond a reasonable doubt.” Arizona v. Fulminante, 499 U.S. 279, 310 (1991).
The uncontroverted evidence, independent of the post-arrest statement, is as
follows. In 2013, Jake Clyde Merendino, whom the defendant was found guilty of
murdering, was a wealthy man in his fifties living in Houston, Texas. That summer,
he took a vacation to San Diego, where he responded to an online ad posted by David
Enrique Meza, a 24-year-old male prostitute. Meza came to Merendino’s hotel room
and stayed for an hour; a few days later, the two met again for dinner. After the
vacation, Merendino paid for Meza to visit him in Houston, where they spent a
weekend together. Merendino visited Meza once more that summer in San Diego,

1

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 6 of 10

where he bought Meza a car, paid for him to enroll in college courses, and began
sending him regular wire payments.
While his relationship with Merendino developed, Meza was also dating a 19year-old woman named Taylor Langston. The pair got engaged in September 2013.
Throughout the following year, Merendino visited Meza in San Diego several times,
bought him another car and a motorcycle, and added him to his bank account. In
December, Merendino wrote out a will leaving “everything” to Meza. Soon after,
Merendino bought a condo in Rosarito, Mexico, just across the border from San
Diego, and listed Meza as the beneficiary of the condo in case of his death. Meza
meanwhile told Langston and his family that the reason for his absences and the
source of his income was a man named “George,” for whom Meza claimed to be
working as a personal assistant. In October 2014, Langston became pregnant. As the
due date approached, Meza began telling people that “George” was sick and
insinuated that he did not have long to live. He and Langston made plans about what
they would do “when we get George’s car.”
In late April 2015, Merendino left Texas to move with Meza into the condo
in Rosarito. On May 1, after signing the closing documents together, Meza and
Merendino checked in to a nearby hotel, as the condo was undergoing renovations.
They spent the evening together until about 10:20 p.m., when Meza rode his
motorcycle back to his apartment in San Diego. At approximately 12:30 a.m., Meza
2

(6 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 7 of 10

rode back to Mexico and stopped on the side of the road a few miles from the hotel.
At about 2:00 a.m., Meza called Merendino and asked him to come meet him
because his motorcycle had stalled. Merendino left the hotel in his car and did not
return. That morning, Mexican police found Merendino’s body. Merendino had been
stabbed 24 times, including two large slash wounds to the neck. His body had then
been dragged and thrown into a nearby ravine. GPS data puts Meza at the scene of
the crime when it occurred and video surveillance showed that he changed his
clothes before crossing back over the border to the United States at about 4:00 a.m.
After the killing, Meza withdrew the remaining funds from the bank account
he shared with Merendino and sent a copy of the handwritten will (naming Meza as
the beneficiary of a $1.3 million estate) to a lawyer in Texas to be probated. Meza
googled news articles about the killing and reached out to an acquaintance to help
back up a false alibi he had devised. Over the following weeks, Meza also began to
express regret to Langston in a number of text messages. In one which he sent on
May 30, he told Langston: “Ever since I did what I did, I’m not the same. And you
have no idea how hard it is to try to pretend everything is fine. To pretend that I’m
a normal person and have a normal life.” Perhaps most significantly, Meza left a
voicemail on Langston’s cellphone, the functional equivalent of a confession to the
murder, in which he told her:
I honestly feel like shit with myself when I, ever since I did that, I hated
myself more every day, every day. And I need to speak to someone, I
3

(7 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 8 of 10

really do. I need help. Because I don’t know how to cope. I really don’t
know how to get past this and move on. Every day of my life I wake up
feeling guilty, I wake up hating myself for doing that. I had to, I had no
choice, well, I had a choice, but I did it because I wanted to, for my
family. But the price, uh, the price is high. More than I thought.
(emphasis added).
Meza does not seriously contest the substantial, independent, and credible
evidence of guilt. Instead, he focuses on the effect the post-arrest statement may
have had on whether Meza had the intent to kill Merendino when Meza crossed the
border from the United States to Mexico. This argument is plainly without merit.
The very facts that establish that Meza murdered Merendino compel the conclusion
that he decided to kill Merendino before crossing back to Mexico.
Meza also argues that the trial prosecutor relied extensively on Meza’s postarrest statement to show such premeditation. At no point during the prosecutor’s
summation, however, does he address the mens rea element of the offense, except in
responding to the defense’s theory of the case (based on Meza’s post-arrest
statement) that, when he crossed the border, he intended only to steal Merendino’s
stereo equipment. The prosecutor pointed out that this theory did not make any sense
because for over the preceding two years, “Merendino gave the defendant everything
he wanted and more” and “this story about needing to steal at two o’clock in the
morning . . . doesn’t add up in light of all of the evidence.” Indeed, to the extent that
the prosecutor referenced the defendant’s post-arrest exculpatory statement, it was
4

(8 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 9 of 10

for the purposes of impeaching it by demonstrating its inconsistency with the other
evidence in the case and to show that the defendant was a liar.
While it is true that the jury requested the clips and transcript of Meza’s
statement during its deliberations, this may have simply reflected the fact that the
post-arrest statement was the only evidence that provided the basis for what passed
for a defense theory. Defense counsel not only relied on the post-arrest statement in
his summation, he played excerpts from it to undercut the showing of mens rea when
Meza crossed the border. I have already alluded to the part of his statement relied
upon by Meza’s counsel that he crossed the border with the intent to steal
Merendino’s stereo equipment. At a later point in his summation, Meza’s counsel
actually played audio clips of the detective’s interrogation to the jury in an effort to
show that the detective and the FBI agent who accompanied him “didn’t believe that
David Meza intended to kill Jake Merendino at the time he crossed from the United
States into Mexico. They didn’t believe that. They believed that it was something
that went wrong at the meeting. And if you agree with them, that’s no conviction on
Count 1.” The jury may very well have been interested in going over this again. In
any event, Meza’s assumptions on appeal about the jury’s requests for evidence or
the length of its deliberations are at best a matter of speculation, insufficient to
overcome evidence so overwhelming that Meza’s lawyer began his summation by
saying: “We will agree he had motive. He had opportunity.”
5

(9 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-1, Page 10 of 10

In sum, even if the Miranda warnings were somehow flawed, the admission
of the post-arrest statement was harmless beyond a reasonable doubt.

6

(10 of 14)

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-2, Page 1 of 4

(11 of 14)

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-2, Page 2 of 4
►
►
►

(12 of 14)

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

•
•

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-2, Page 3 of 4

(13 of 14)

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

Case: 17-50432, 01/21/2020, ID: 11567506, DktEntry: 49-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

Date

(use “s/[typed name]” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
DOCUMENTS / FEE PAID
Excerpts of Record*

No. of
Copies

Pages per
Cost per Page
Copy

TOTAL
COST

$

$

Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Principal Brief(s) (Opening Brief; Answering

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

Form 10

Rev. 12/01/2018

(14 of 14)

